<html>
<title> - MARKUP OF H. CON. RES. 322 AND S. CON. RES. 81</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




             MARKUP OF H. CON. RES. 322 AND S. CON. RES. 81

=======================================================================

                                 MARKUP

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                         Tuesday, June 27, 2000

                               __________

                           Serial No. 106-125

                               __________

    Printed for the use of the Committee on International Relations


 Available via the World Wide Web: http://www.house.gov/international 
                               relations

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
65-773 CC                   WASHINGTON : 2000



                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE P. RADANOVICH, California     JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

                  Subcommittee on Asia and the Pacific

                   DOUG BEREUTER, Nebraska, Chairman
JAMES A. LEACH, Iowa                 TOM LANTOS, California
DANA ROHRABACHER, California         HOWARD L. BERMAN, California
PETER T. KING, New York              ENI F.H. FALEOMAVAEGA, American 
MARSHALL ``MARK'' SANFORD, South         Samoa
    Carolina                         MATTHEW G. MARTINEZ, California
MATT SALMON, Arizona                 SHERROD BROWN, Ohio
JOHN McHUGH, New York                ROBERT WEXLER, Florida
RICHARD BURR, North Carolina         JIM DAVIS, Florida
PAUL GILLMOR, Ohio                   EARL POMEROY, North Dakota
DONALD A. MANZULLO, Illinois         GARY L. ACKERMAN, New York
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
JOHN COOKSEY, Louisiana
             Michael P. Ennis, Subcommittee Staff Director
         Dr. Robert King, Democratic Professional Staff Member
                         Matt Reynolds, Counsel
                  Alicia A. O'Donnell, Staff Associate
                            C O N T E N T S

                              ----------                              

                                APPENDIX

                                                                   Page

Bills:

H. Con. Res. 322.................................................    10
Amendment in the nature of a Substitute to H. Con. Res. 322......    12
S. Con. Res. 81..................................................    14

 
             MARKUP OF H. CON. RES. 322 AND S. CON. RES. 81

                              ----------                              


                         Tuesday, June 27, 2000

                  House of Representatives,
              Subcommittee on Asia and the Pacific,
                      Committee on International Relations,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 3:10 p.m. In 
Room 2255, Rayburn House Office Building, Hon. Doug Bereuter 
(Chairman of the Subcommittee) presiding.
    Mr. Bereuter. The Subcommittee will come to order.
    We meet in open session to consider two measures, H. Con. 
Res. 322, relating to Vietnam; and S. Con. Res. 81, relating to 
the People's Republic of China's arrest of Rabiya Kadeer.
    We will call up first H. Con. Res. 322. This expresses the 
sense of the Congress regarding the sacrifices of individuals 
who served in the armed forces of the Republic of Vietnam, 
which the clerk will read.
    The Clerk. H. Con. Res. 322, expressing the sense of 
Congress regarding Vietnamese Americans and others who seek to 
improve social and political conditions in Vietnam.
    Whereas on April 30, 1975, Saigon, Vietnam, fell to 
Communist forces and the current----
    Mr. Bereuter. Without objection, further reading of the 
resolution will be dispensed with, printed in the record in 
full and open for amendment.
    [The information referred appears in the appendix.]
    Mr. Bereuter. The resolution was introduced on May 11th by 
the gentleman from Virginia, Mr. Davis, cosponsored by this and 
other Members to recognize the Vietnamese who fought bravely 
side by side with U.S. forces in Vietnam and to applaud all 
those whose efforts focused international attention on human 
rights violations in Vietnam.
    Every year on June 19th, the Vietnamese American community 
traditionally commemorates those who gave their lives in the 
struggle to preserve the freedom of the former Republic of 
Vietnam.
    During the war, the armed forces of the Republic of Vietnam 
suffered enormous casualties, including over 250,000 killed and 
more than 750,000 wounded. They continued to suffer after the 
fighting ended when many were imprisoned and forced to undergo 
so-called re-education. They continue their efforts even now, 
playing an important role in raising international awareness of 
human rights violations in the Socialist Republic of Vietnam.
    Earlier this year, thie International Relations Committee 
passed and the House approved Mr. Rohrabacher's H. Con. Res. 
295 on human rights and political oppression in Vietnam. While 
I support Mr. Davis' resolution, there is some inevitable 
duplication in the two initiatives. The Chairman will be 
offering an amendment in the nature of a substitute, agreed to 
by Mr. Davis, which eliminates the duplication with Mr. 
Rohrabacher's resolution and focuses this resolution on 
commemorating the service and sacrifices of the former members 
of the armed forces of the Republic of Vietnam. This Member 
hopes that all of his colleagues will support this laudable 
resolution in its substitute form.
    I now turn to the Subcommittee's distinguished Ranking 
Member, the gentleman from California, Mr. Lantos, for any 
comments that he might wish to make. Mr. Lantos.
    Mr. Lantos. Mr. Chairman, I associate myself with your 
remarks, and I support your position.
    Mr. Bereuter. Thank you, Mr. Lantos.
    Are there other members who wish to be heard?
    Mr. Rohrabacher.
    Mr. Rohrabacher. Mr. Chairman, as original Co-sponsor, I 
strongly support this resolution by Mr. Davis of Virginia; and 
I congratulate the gentleman as well as you, Mr. Chairman, for 
this amendment.
    I would like to say my able assistant, Al Santoli, who 
fought in the Vietnam War and won three Purple Hearts, and I 
spent several months in Vietnam in 1967 on various political 
operations.
    The fact is, those of us who were in Vietnam during the war 
and witnessed the situation with the Vietnamese and the post-
war refugee camps after the war crowded with Vietnamese boat 
people, many of whom arrived with nothing, nothing from their 
homeland, and we have continued to watch the ongoing 
development with the Vietnamese community, and let me say that 
it has been inspiring for us to see this transition from the 
war to being homeless refugees to now being people of great 
accomplishment here in the United States of America.
    I am especially impressed with the young generation, some 
of whom were born in refugee camps, others who were born here, 
all of whom are excelling in their studies, and yet they have 
not, this younger generation of Vietnamese Americans, forgotten 
the cause of freedom in their homeland.
    The resolution recognizes the sacrifices of the Vietnamese 
Americans who fought in the armed forces of the Republic of 
South Vietnam, and it also recognizes the abysmal failure of 
the Communist tyrants who have suppressed the Vietnamese people 
for the last 25 years. This is a profound bit of evidence for 
anyone who has any doubts about the true nature of communism 
and also underscores that the Vietnam War, as President Ronald 
Reagan described it, was a noble cause.
    This resolution, written by Mr. Davis and a member of his 
staff, Ms. Uyen Dihn--she herself exemplifies the hard work and 
commitment to education and the hard work and commitment to 
education of the first generation of Vietnamese Americans. This 
offers a tribute to the achievement of new Americans; and her 
example and, of course, the example of others should give 
encouragement to people everywhere who struggle for freedom and 
long for human dignity. Those people fighting that fight need 
only to remember the brave Americans and South Vietnamese 
soldiers who fought and died to try to preserve freedom in 
South Vietnam so many years ago and the success of the 
Vietnamese Americans who live under freedom today in the United 
States.
    Mr. Bereuter. Thank you, Mr. Rohrabacher.
    Any further discussion or statements?
    Mr. Hastings. Mr. Chairman.
    Mr. Bereuter. The gentleman from Florida.
    Mr. Hastings. Mr. Chairman, I have no additional statement. 
I support the measure as well as your amendment in the nature 
of a substitute. I would merely ask that my name be included as 
a co-sponsor, if the time is appropriate at this time.
    Mr. Bereuter. Thank you. We will ask Mr. Davis for that to 
be done.
    Mr. Hastings. Thank you.
    Mr. Bereuter. I would say, responding to the gentleman from 
California, he is certainly right to call attention to the 
accomplishments of the Vietnamese Americans today.
    My own personal experience with the Vietnamese American 
community in part was based upon that of my wife who was 
teaching in the Arlington, Virginia, public school system. The 
students of Vietnamese American families here succeeded rapidly 
in school. The families took jobs no one else wanted and 
started family businesses. Their children did remarkably well 
in grade and high school and beyond, and they were saving at 
two times the rate of other Americans.
    In my own district we now have 2,000 or so Vietnamese 
Americans living in Lincoln, and many of them or their family 
members served in the army of the Republic of Vietnam. As I 
held a town hall meeting specifically for them recently with 
interpreters, I found that their only questions and concerns 
were how to learn English more rapidly and how to be more 
adequately employed in our society. It is a remarkable success 
story of these refugees and immigrants.
    The amendment is open for discussion. The clerk will read 
the amendment offered by the Chair.
    The Clerk. Amendment in the nature of a substitute to H. 
Con. Res. 322 offered by Mr. Bereuter.
    Strike the preamble and insert the following:
    Mr. Bereuter. Without objection, the amendment is 
considered as read and printed in the record and open for 
amendment.
    [The information referred to appears in the appendix.]
    Mr. Bereuter. This Member worked with Mr. Davis and was 
vigilant that this amendment avoided duplication of the 
substance of H. Con. Res. 295 authored by Mr. Rohrabacher and 
which the House passed. Again this amendment is, to focus 
instead on commemorating the sacrifices and services of the 
former members of the armed forces of the Republic of Vietnam.
    Are there questions or comments or discussion on the 
amendment?
    If not, all those in favor of the amendment will say aye. 
All those opposed, say no.
    The ayes appear to have it. The ayes do have it.
    Are there further amendments?
    If no amendments or no further discussion, the question 
occurs in agreeing to the resolution as amended. As many as are 
in favor will say aye. All those opposed, no.
    The ayes appear to have it, and the resolution is agreed 
to.
    Without objection, the staff is authorized to make 
technical, grammatical and conforming changes to the text just 
agreed to.
    The second and remaining order of business is consideration 
of S. Con. Res. 81, expressing the sense of the Congress that 
the Government of the People's Republic of China should 
immediately release Rabiya Kadeer, her secretary, and her son 
and permit them to move to the United States if they so desire. 
The clerk will read.
    The Clerk. S. Con. Res. 81 expressing the sense of Congress 
that the Government of the People's Republic of China should 
immediately release Rabiya Kadeer, her secretary, and her son, 
and permit them to move to the United States if they so desire.
    Mr. Bereuter. Without objection, further reading of the 
resolution will be dispensed of, printed in the record in full 
and open for amendment.
    [The information referred to appears in the appendix.]
    Mr. Bereuter. S. Con. Res. 81 was introduced by the senior 
senator from Delaware, Senator William Roth, and approved by 
the Senate on May 2, 2000, and referred to the House Committee 
on International Relations on May 3rd.
    The resolution expresses the sense of Congress that the 
People's Republic of China (PRC) should immediately release 
Rabiya Kadeer, her secretary and her son and permit them to 
move to the United States if they so desire.
    Rabiya Kadeer is a prominent ethnic Uigher from China. Her 
husband, who works for Radio Free Asia, and she have five 
children, three sisters and a brother living in the United 
States. She was arrested in the city of Urumqi as she was 
attempting to meet a group of congressional staff staying there 
as part of an official visit to China organized under the 
auspices of the Mutual Educational and Cultural Exchange 
Program of the U.S. Information Agency.
    On March 10th, Rabiya Kadeer was sentenced to 8 years in 
prison for the crimes of ``illegally giving state information 
across the border.'' Her son was sent to a labor camp for 2 
years last November for ``supporting Uigher separatism,'' and 
her secretary was recently sentenced to 3 years in a labor 
camp.
    In Rabiya's case, the so-called state information appears 
to have consisted essentially of a collection of publicly 
available Chinese newspaper articles, speeches, and a list of 
prisoners. This case appears to constitute a clear violation of 
the international covenant on civil and political rights. This 
resolution makes clear the strong sense of the Congress that 
Ms. Kadeer should be immediately released and allowed to join 
her family in the United States.
    This Member urges the Subcommittee to support the 
resolution offered by the senior senator from Delaware. I will 
tell my colleagues that a similar resolution was introduced in 
the House by Mr. Nethercutt of Washington. However, Mr. 
Nethercutt agreed that a joint resolution approved by both 
bodies is preferable to each body considering a separate 
resolution.
    I turn to the Subcommittee's Ranking Minority Member, the 
distinguished Member from California, for any comments that he 
might have.
    Mr. Lantos. Mr. Chairman, needless to say, I strongly 
support the resolution, but I want us to understand clearly as 
we pass this resolution that this tragic case is one of tens of 
thousands of the most sickening, outrageous, vicious 
expressions of human rights abuses on the part of the Communist 
dictatorship in Beijing.
    Not long ago, as the Co-chairman of the Congressional Human 
Rights Caucus, I chaired a hearing on the most recent abuses of 
human rights aimed at Falun Gong practitioners; and a few days 
after our hearing an elderly Falun Gong practitioner, a lady, 
was killed by the Chinese.
    We are conducting a profoundly schizophrenic policy with 
respect to China. From time to time, we express naive hopes and 
expectations concerning the vast export opportunities which are 
present for American businesses, and then the next day we pass 
resolutions expressing our anguish and pain over these 
outrages.
    I have difficulty reconciling in my own mind this 
simultaneous dual approach to China. I find it difficult to see 
how we can at the same time maintain a business-as-usual 
approach to this awful Communistic dictatorship while knowing 
about these episodes and incidents which are innumerable.
    I am delighted that this has been singled out, and I am 
eager that all of us vote for it so we have this on the record. 
But this is not even the tip of the iceberg. This is the tip of 
the tip of the tip of the iceberg. We are talking about vast 
numbers of people--Catholics, Protestants, Buddhists, other 
ethnic minorities--people who have expressed the slightest 
degree of opposition to this truly sickening regime, and yet 
business as usual is being conducted.
    So I strongly support the resolution without the slightest 
illusion that it will make any impact in those quarters of many 
of our multinational corporations where, in fact, significant 
assistance could be given to those of us who have been in the 
vineyards of the human rights struggle. There is a sort of 
awkward indifference and embarrassment on the part of much of 
American corporate leadership with respect to this whole issue. 
This is analogous to people going to church on Sunday and 
cheating and robbing and murdering the rest of the 6 days of 
the week. That is an unseemly phenomenon. This is an unseemly 
phenomenon.
    My vote for this is obviously given without any reservation 
but with a tremendous degree of cynicism because I do not 
believe that these occasional gestures of passing a resolution 
deals with the underlying issue. This is a profoundly evil, 
corrupt, ruthless, totalitarian regime.
    Yesterday, we dealt with their attempt to buy a spy tower 
on the Pentagon. We have seen the singularly benign and 
nonthreatening group of men and women who belong to the Falun 
Gong persecuted with a degree of ruthlessness. His holiness, 
the Dali Lama, is still being treated like a criminal; and the 
pattern of human rights violations, as the State Department's 
own annual report clearly indicates, is getting worse, more 
oppressive, more widespread and more appalling. And it is no 
wonder that the Chinese leadership ignores and ridicules and 
sloughs off all of our efforts along these lines.
    Thank you, Mr. Chairman.
    Mr. Bereuter. Thank you, Mr. Lantos.
    Are there other Members who wish to be heard?
    Mr. Hastings. Mr. Chairman.
    Mr. Bereuter. The gentleman from Florida.
    Mr. Hastings. I would like to associate myself with your 
and Mr. Lantos' remarks, and I support it. But in the first 
full paragraph of the first page Ms. Kadeer's husband is 
referred to as Sidik Rouzi--and I stand to be corrected with 
reference to the pronunciation--and then on the second full 
paragraph, citing a newspaper, his name is referred to in the 
newspaper article as Sidik Haji. I have no quarrel with it. I 
just am curious. Is the husband Sidik Rouzi or Haji? Or does it 
matter? Or is he both?
    Mr. Bereuter. I don't know the answer to that. You raise an 
interesting question. We will get to the bottom of it, and if 
necessary I will ask for changes, if necessary. We will be in 
contact with the Senate to see if the original sponsor of the 
resolution has an answer to your inquiry.
    [Ms. Kadeer's husband is named Sidik Rouzi. ``Haji'' is an 
honorific title.]
    Mr. Hastings. Thank you.
    Mr. Bereuter. Let me just say, in response to Mr. Lantos, I 
hope the gentleman understands that I have nothing but great 
respect and admiration for the work that he does on the Human 
Rights Caucus as a Co-Chairman. We have recently had a 
substantial discussion about relations in light of the 
discussions and vote on Permanent Normal Trade Relations 
(PNTR); and there is disagreement as to how in fact we can have 
impact, even marginal impact on the People's Republic of China 
and their conduct with respect to their own citizens.
    My own judgment is that the current procedure we have used 
in the past is almost insignificant in having any impact and 
that we need to act in our national interest and try over a 
period of time to have a more positive impact on that society. 
I certainly believe we need to put more resources into rule of 
law programs, and, hopefully, we will begin to have a 
bipartisan consensus on doing that within the Appropriations 
Subcommittees involved.
    This is the tip of the tip of the tip of the iceberg, as 
the gentleman referred to it, but I do know that from working 
with American Citizen John Kamm, who keeps close contact and 
aggressively pursues information about high-profile prisoners 
in China, I am convinced that we have had an impact on reducing 
prisoners' sentences and getting them out of prison in many 
cases. But it is a very painful process. This situation 
shouldn't exist, and we can agree to that.
    If there is no further discussion, the resolution is open 
for amendment. Are there amendments?
    Hearing none, the question occurs on agreeing to the 
resolution, S. Con. Res. 81. As many as are in favor will say 
aye. All those opposed will say no.
    The ayes have it, and the resolution is agreed to.
    Especially in response to Mr. Hastings, without objection, 
the staff is authorized to make technical, grammatical and 
conforming changes to the text just agreed to.
    I thank my colleagues for participating in the markup and 
preparing these two resolutions for consideration by the Full 
Committee on Thursday. Thank you, gentlemen.
    The Subcommittee is adjourned.
    [Whereupon, at 3:31 p.m., the Subcommittee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                             June 27, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T5773.001
    
    [GRAPHIC] [TIFF OMITTED] T5773.002
    
    [GRAPHIC] [TIFF OMITTED] T5773.003
    
    [GRAPHIC] [TIFF OMITTED] T5773.004
    
    [GRAPHIC] [TIFF OMITTED] T5773.005
    
    [GRAPHIC] [TIFF OMITTED] T5773.006
    
    [GRAPHIC] [TIFF OMITTED] T5773.007
    
    [GRAPHIC] [TIFF OMITTED] T5773.008
    

</pre></body></html>
